HHS/OIG, Audit -"Review Of Medicaid Claims for Beneficiaries Under the Age 21 Who Reside in Institutions forMental Diseases in New York State,"(A-02-02-01024)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Claims for Beneficiaries Under the Age of 21 Who Reside in Institutions for Mental Diseases
in New York State," (A-02-02-01024)
February 23, 2004
Complete
Text of Report is available in PDF format (744 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that New York, contrary to provisions
of Title XIX of the Social Security Act, improperly claimed Medicaid funds of more than $7.6 million (Federal share)
for the 4-year period ending June 30, 2001 for medical care provided residents under the age of 21 in institutions for
mental diseases (IMDs).  The improper claims occurred because the State had not instituted the necessary controls
to identify and preclude such claims.  In addition to a financial adjustment for the $7.6 million, we recommended
procedural improvements that should preclude this problem in the future.